HHS/OIG, Audit -"Review of Medicare Secondary Payer Processes at Maimonides Medical Center for Claims Paid between July 1, 2001 and March 31, 2002,"(A-02-02-01037)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Secondary Payer Processes at Maimonides Medical Center for Claims Paid between July 1, 2001
and March 31, 2002," (A-02-02-01037)
February 25, 2004
Complete
Text of Report is available in PDF format (903 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review was to assess Maimonides Medical Centers (Maimonides) processes and controls for the Medicare
Secondary Payer (MSP) provision.  The results indicate that the MSP processes, procedures and controls were generally
adequate, but that Maimonides did not always identify the appropriate primary payer.  As a result, the Medicare program
was overcharged on behalf of three of the 40 beneficiaries in our review in the amount of $2,154, a private insurer was
overcharged for one beneficiary in the amount of $10,000 and Maimonides had not collected $161 from other insurers for
services rendered to two beneficiaries.  We also determined that Maimonides underreported credit balances to Centers
for Medicare and Medicaid Services in the amount of $2,154.  We recommended that Maimonides review its written policies
on MSP questionnaires, provide additional training and supervision for its registrars, ensure that the Medicare program
is reimbursed for the improper payments, resubmit claims to collect monies due from private insurers and Medicaid and ensure
that pending adjustments are included in its credit balance reports.  Maimonides concurred with the recommendations.